      Department of Homeland Security




      The State of Utah’s Management of Urban Areas
   Security Initiative Grants Awarded During Fiscal Years
                       2008 Through 2010




OIG-12-124                                   September 2012

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov



                                     SEP 14 2012

MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     ThefStatefoffUtah’sfManagementfoffUrbanfAreasfSecurityf
                             InitiativefGrantsfAwardedfDuringfFiscalfYearsf2008fThroughf
                             2010fff

Attached is our final report, ThefStatefoffUtah’sfManagementfoffUrbanfAreasfSecurityf
InitiativefGrantsfAwardedfDuringfFiscalfYearsf2008fThroughf2010.ffWe incorporated the
formal comments from the Federal Emergency Management Agency in the final report.

The report contains two recommendations aimed at improving the Urban Areas Security
Initiative Grants program’s overall effectiveness. Your office concurred with both
recommendations. Based on information provided in your response to the draft report, we
consider the recommendations resolved and closed.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Audit .................................................................................................................. 2 


              Transfers of Grant Funds Between Projects .......................................................... 3 

              Equipment Marking ............................................................................................... 4 

              Recommendations ................................................................................................. 4 

              Management Comments and OIG Analysis ........................................................... 5 



   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................. 6 

              Appendix B:          Management Comments to the Draft Report ................................ 8 

              Appendix C:          Major Contributors to This Report ............................................... 10 

              Appendix D:          Report Distribution ....................................................................... 11 



   Abbreviations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              OIG                   Office of Inspector General
              SAA                   State Administrative Agency
              UASI                  Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                               OIG-12-124
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS) Office of Inspector General
   (OIG) to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for the State of Utah and its Urban Areas Security Initiative grants. The
   State of Utah’s State Homeland Security Program grants were audited in 2008.

   The objectives of the audit were to determine whether the State of Utah distributed and
   spent Urban Areas Security Initiative grant funds (1) effectively and efficiently and (2) in
   compliance with applicable Federal laws, regulations, and guidance. We also addressed
   the extent to which Urban Areas Security Initiative grant funds enhanced the State’s
   ability to prevent, prepare for, protect against, and respond to natural disasters, acts of
   terrorism, and other manmade disasters. The audit included a review of approximately
   $7.6 million in Urban Areas Security Initiative grants awarded to the State during fiscal
   years 2008 through 2010.

   Overall, the State of Utah did an efficient and effective job of administering the Urban
   Areas Security Initiative grant program requirements, distributing grant funds, and
   ensuring that funds were used appropriately. Urban Areas Security Initiative grant
   funds were used to enhance the State’s preparedness for disasters and acts of
   terrorism. An urban area working group was formed to guide the development of
   regional prevention, protection, response, and recovery and is governed by bylaws,
   strategic plans, and Federal guidance. The State Administrative Agency monitored
   performance and measured preparedness improvement. We tested a sample of the
   items purchased with grant funds and determined that the funds were spent in
   accordance with grant requirements.

   However, we identified two minor areas for improvement: ensuring that (1) transfers of
   grant funding between projects are approved and (2) equipment purchased with grant
   funds is properly marked. The Federal Emergency Management Agency concurred with
   and implemented both of our recommendations.




www.oig.dhs.gov                                 1                                       OIG-12-124
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   The Homeland Security Grant Program provides Federal funding to help State and local
   agencies enhance capabilities to prevent, protect against, respond to, and recover from
   terrorist attacks, major disasters, and other emergencies. It encompasses several
   interrelated Federal grant programs, including the State Homeland Security Program,
   the Urban Areas Security Initiative (UASI), the Metropolitan Medical Response System
   Program, and the Citizen Corps Program. Together, these programs support the
   implementation of the State Homeland Security Strategy and fund a range of
   preparedness activities, including planning, organization, equipment purchases, and
   training and exercises, as well as management and administrative costs.

   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires DHS OIG to audit individual States’ management of State Homeland
   Security Program and UASI grants. The State Homeland Security Program grants for
   Utah were addressed in our report “The State of Utah’s Management of State Homeland
   Security Grants Awarded During Fiscal Years 2004 through 2006,” OIG 08-83, August
   2008. This report responds to the reporting requirement for the UASI grants. The State
   of Utah received approximately $7.6 million in UASI grants during fiscal years (FYs) 2008,
   2009, and 2010.

   The State Administrative Agency (SAA) for Utah is the Utah Department of Public Safety,
   Division of Emergency Management.1 It is responsible for administering the Homeland
   Security Grant Program in accordance with Federal guidelines and allocating funds to
   local, regional, and other State government agencies. The Salt Lake urban area includes
   all jurisdictions, agencies, and organizations geographically located within Salt Lake
   County. The Salt Lake UASI is overseen by an urban area working group, which consists
   of Salt Lake Valley stakeholders and agencies that directly relate to the mission of
   integrated regional preparedness.

   Appendix A provides details on the objectives, scope, and methodology for this audit.

   Results of Audit
   Overall, the State of Utah did an efficient and effective job of administering the UASI
   grant program requirements, distributing grant funds, and ensuring that funds were
   used appropriately. UASI grant funds were used to enhance the State’s preparedness
   for disasters and acts of terrorism. An urban area working group was formed to guide
   the development of regional prevention, protection, response, and recovery through

   1
       Formerly named the Division of Homeland Security.


www.oig.dhs.gov                                        2                              OIG-12-124
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   UASI funding. The working group is governed by strategic plans, bylaws, and Federal
   guidance. The Federal Emergency Management Agency (FEMA) monitored
   performance, and the SAA measured preparedness improvement. We tested a sample
   of the items purchased with UASI grant funds and determined that the funds were spent
   in accordance with grant requirements. However, we identified two minor areas for
   improvement: ensuring that (1) transfers of grant funding between projects are
   approved and (2) equipment is properly marked.

           Transfers of Grant Funds Between Projects

           Applicants for the Homeland Security Grant Program propose projects to address
           gaps in current programs and capabilities. After the grant is awarded, FEMA
           needs to approve any funding transfers between projects if the scope of those
           projects changes. In FYs 2009 and 2010, the State of Utah changed the scope of
           several projects by transferring approximately $2.3 million in UASI grant funds
           between projects. These transfers were made without prior approval from
           FEMA. (See table 1.)

           Table 1: Transfer of Funds to Other Projects
           FY 2009                                  Amount Transferred to Other Projects
           Risk Management                                   $400,000
           Planning Objectives                               $121,958
                  FY 2009 Total                              $521,958
           FY 2010                                  Amount Transferred to Other Projects
           Centralized Intel Database                        $480,000
           10-Channel Intelligent Repeater Truck             $750,000
           Training Coordinator                              $300,000
           Training Gap Analysis                             $289,977
                  FY 2010 Total                            $1,819,977
           Total Amount Transferred                        $2,341,935
           Source: OIG.

           A manager at the SAA told us that the State did not seek approval from FEMA for
           the funding transfers because it misunderstood the requirement. However, the
           State did report the funding changes in its Biannual Strategy Implementation
           Reports to FEMA.

           FEMA approved reimbursements for FY 2009 project expenditures even though
           it had not approved the transfer of funds between projects. Although we
           determined that the expenditures were allowable under the grant guidelines,
           FEMA should take steps to ensure that the SAA submits budget change requests


www.oig.dhs.gov                               3                                     OIG-12-124
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           for all funding transfers between projects. This will help ensure that items
           purchased do not exceed approved amounts and are allowable under the grant
           guidelines.

           Equipment Marking

           The FY 2008 Grant Award Agreement and the FY 2009 Homeland Security Grant
           Program Guidance required that, when practicable, grantees prominently mark
           any equipment purchased with grant funding with the statement, “Purchased
           with funds provided by the U.S. Department of Homeland Security.” However,
           none of the items we reviewed were marked in this manner.

           The FY 2010 grant guidance states that awardees “may consider” marking
           equipment “Purchased with funds provided by the U.S. Department of Homeland
           Security.” We did not review any items purchased with FY 2010 grant funds
           because they had not yet been reimbursed by FEMA.

           Representatives of the Salt Lake urban area working group told us that they were
           not aware of the labeling requirement at the time the purchases were made, but
           they are now in the process of labeling the equipment purchased with UASI
           grant funding. Labeling equipment will help ensure that it can be easily
           identified and its use can be verified.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #1:

           Ensure that the State Administrative Agency seeks approval for all funding
           transfers between projects.

           Recommendation #2:

           Ensure, where practicable, that the Salt Lake UASI marks all purchases made
           with Department of Homeland Security funds with the words “Purchased with
           funds provided by the U.S. Department of Homeland Security.”




www.oig.dhs.gov                                4                                        OIG-12-124
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           FEMA concurred with both recommendations, and noted that it would use the
           report findings to strengthen the effectiveness and efficiency of program
           execution. The State of Utah had no comments on the recommendations.

           FEMA Response to Recommendation #1: FEMA concurred with
           Recommendation #1.

           OIG Analysis: FEMA stated that it will ensure that the SAA understands that it
           must receive formal approval from FEMA’s Grant Programs Directorate before
           transferring funding between projects. In June 2012, the SAA provided FEMA
           with a detailed budget worksheet indicating the funding transfer and all activities
           to be funded. FEMA approved this request and reiterated the importance of
           prior approval of all funding transfers between projects. The SAA also provided
           copies of the funding transfer budget detail to the OIG. We consider this
           recommendation resolved and closed.

           FEMA Response to Recommendation #2: FEMA concurred with
           Recommendation #2.

           OIG Analysis: FEMA stated that it will ensure that grantees are aware of the
           labeling requirement and are in compliance for future awards. Representatives
           of the Salt Lake City UASI stated that the equipment has now been labeled with
           the necessary decals. Photos of labeled equipment were provided to FEMA and
           the OIG to substantiate this claim. We consider this recommendation resolved
           and closed.




www.oig.dhs.gov                                 5                                      OIG-12-124
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107-296) by
   amendment to the Inspector General Act of 1978. This is one of a series of audit,
   inspection, and special reports prepared as part of our oversight responsibilities to
   promote economy, efficiency, and effectiveness within the Department.

   The objectives of this audit were to determine whether the State of Utah distributed
   and spent UASI grant funds efficiently, effectively, and in compliance with laws,
   regulations, and guidance. We also addressed the extent to which UASI grant funds
   enhanced the State’s ability to prevent, prepare for, protect against, and respond to
   natural disasters, acts of terrorism, and other manmade disasters.

   The scope of the audit included the UASI grant awards for FYs 2008, 2009, and 2010, as
   shown in table 2.

                   Table 2: Homeland Security Grant Program Awards to the State of Utah
                                         FYs 2008 Through 2010

                  Funded Activity              FY 2008      FY 2009       FY 2010           Total
      Urban Areas Security Initiative         $1,845,000   $2,894,250     $2,900,078       $7,639,328
      State Homeland Security Program         $6,810,000   $6,524,500    $6,613,200       $19,947,700
      Citizen Corps Program                     $185,514     $184,880      $160,037          $530,431
      Metropolitan Medical Response
                                                $321,221     $321,221     $317,419          $959,861
      System Program
      Total                                   $9,161,735   $9,924,851    $9,990,734    $29,077,320
              Source: FEMA.

   FY 2011 grants were not included in the scope of this audit because the State of Utah
   did not receive UASI funding for FY 2011.

   Since the Homeland Security Grant Program and its five interrelated grant programs
   fund a range of preparedness activities, all were considered when evaluating the
   planning cycle and the effectiveness of the overall grant program. However, only UASI
   funding, and equipment and programs supported by UASI funding, were reviewed for
   compliance.

   The scope of this audit included the plans developed by the State to improve
   preparedness and all-hazards response, the goals set within those plans, the
   measurement of progress toward these goals, and the assessments of performance



www.oig.dhs.gov                                     6                                               OIG-12-124
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   improvement that result from this activity. Further, the scope included the assessment
   of these activities within the context of risk to determine whether the State’s plans
   produced strategic performance improvements related to the areas of highest risk
   rather than merely producing improvements in a broader sense.

   Within Utah, the SAA subawarded UASI funds to the Salt Lake City urban area, which
   includes all jurisdictions within Salt Lake County. We visited the subgrantee, the Salt
   Lake City Corporation, and the following contractors and agencies:

   •   Salt Lake City Fire Department
   •   Salt Lake City Police Department
   •   Salt Lake County Emergency Services Agency
   •   Unified Fire Authority
   •   Unified Police Department

   We judgmentally selected a sample of the UASI expenditures reimbursed by FEMA to
   determine the sufficiency of internal controls. Our sample represented 70 percent of
   reimbursed expenses for FYs 2008 and 2009. We did not review any expenditures from
   FY 2010 because FEMA had not yet reimbursed any grant funds for that year.

   We conducted this performance audit between January 2012 and May 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                                7                                       OIG-12-124
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                     u.s. Department of Homeland St'curity
                                                                                     \Vashirgt()t1. DC 204:2




      MF!'vlORANDUM FOR                Anne L, Ricb_ards
                                       Assistant Inspector Gem.-'ral for Audits
                                       Offil'-e of Inspector General

      FROM:                            David J. Kaufman
                                       Director
                                       Office of Policy and Program Analysis

      SUBJECT:                         Response to OIG Draft Report: The State (~l Utah '5 lvlanagernent (J
                                       Urban Areas Securil}.-' lnitiatilx:!i Grants AYv(]rd,~d During Piscal Years
                                       2008 through 2010 (l2-099-AUD-FEMA)


      Tlus constitutes the Federal Emergency Management Agency's (FEMA 's) respollSe to the (buft
      report for the subject audit. The findings in the report vlill be used to strengthen the effectiveness and
      efticiency of how we execute and measure our programs. We recognize the need to continue to
      improve the process. induding addressing the recommendations raised in this report, Our responses
      to your rccomrnendations are as fOUO\\iS:

      OIG Recommendation #1.: We recommend that the FEMAAssistantAdministrator. Grant
      Prograrns Directorate ensure that the State Administrative Agency:' seeks approval for all funding
      transfers between projects.

      -F:EIVIA Response to the Hraft Report: FE'\1A concurs \\7ith this recommerdation,

      !rh: Federal Ernccgc;n(:y
      under !)!::l_Ylds that                         "",m"nn,; from FE,\iA. is Grant u pn;::ns [)ircc:tnni.tc
                                                                    As [(y- this specifIc ",COnr:Dllmlatio:l, on June
                         Administrative .1 ,'",.,,- , m'm,i.l,,", a detJ.iled
                                                           F J:~fylA 's CilJD annrovcd this reqV(::sT dnd reiterated
      the                    Hn""iTV": of an ii,,,,'; " n transfers bct\0'cc-n             FE\lA n~C!lesis lhat this
      recornmendatlOTl be considered resolved and closc(l




www.oig.dhs.gov                                              8                                                     OIG-12-124
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




       O IG Recomm end a tion #2 : We recommend that the FEMA Assistant Administrator, Grant
       Programs Directorate ensure. \vherc procticablc~ that the Salt Lake UASI marks all purchases made
       with Department of Homeland Security ftluds with the words "'Pun.:hast~d with funds provided by the
       U.s. Department of Homeiand SecUlity."

       F.EMA Response to th e Draft 'Report: FEMA concurs \vith this recommendation.

       The Federal Emergency Management A gency will ensure grantees arc aware of this requirement and
       are in compliance t"()r future awards. As for this spcdfic recommendatio n, the S1'llt Lake City Urban
       Are" Secmity Initiative (VAS!) representati ve stated that he has labeled all grant-funded equipment
       w ith the necessary decals and has provided photographs to substantiate his claim . FEMA requests
       that th is recommendation be Cl'nsidercd reso lved and closed.

       We thank you, again, for tbe oppon unity to provid e o ur comments to the recommendations
       contained in your draft report. S ho uld you have further questi ons regarding our re5ponse, please do
       110 t hesitate to call FEMA's OIG Aud it Liaison, Gina NorluJ1, at 202-646-42 87.




www.oig.dhs.gov                                        9                                             OIG-12-124
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Brooke Bebow, Director
   Stephanie Christian, Audit Manager
   Lisa Vonder Haar, Audit Manager
   Jeanette Hyatt, Auditor
   Keith Nackerud, Auditor
   Richard Joyce, Program Analyst
   Rebecca Mogg, Program Analyst
   Ralleisha Dean, Referencer




www.oig.dhs.gov                           10                    OIG-12-124
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grants Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 11                         OIG-12-124
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
